IN THE

SUPREME COURT OF THE UNITED STATES
SAMUEL JACKSON,

)
)
)
)
)
)
)

Plaintiff,

V.
STATE OF INDIANA,
Defendants.

Cause No: 20-8385

PETITIONER’S SUPPLEMENTAL BRIEF
Comes now, the Petitioner, Samuel Jackson, pro se, respectfully calls attention to new
cases and or other intervening matter not available at the time of the party’s last filing pursuant to
Rule 15.8 from which the Petitioner now request this Court to take in consideration with this case
and cause from which has been served as required pursuant to Rule 29. Petitioner will state the
following in support thereof:
1. On the 16th day of June, 2021, Petitioner has filed a WRIT OF CERTIORARI with this
Court and has proceeded in forma pauperis under Rule 39, in that he is an inmate of an institution.
2. That this Court has yet to rule on these matters as of this date.
3. On the 16th day of August, 2021, the Petitioner requested this Curt to take judicial notice
of a very similar case out of the same county court as the Petitioner.
I.

JUDICIAL NOTICE

4. That Judicial Notice under Fed. R. Evid. 201 (b)(c)(2) states that “The Court must take
judicial notice if a party requests it and the court is supplied with the necessary information
5. That the information that the Petitioner is seeking for this Court to take judicial notice of
is of:
a. 7th Circuit case and cause of a Writ of Habeas Corpus, of Burt Ford, Cause Number:
l:20-cv-01639-RLY-TAB;

i

RECEIVED
SEP 21 20?1

b. 7th Circuits Order for the Indiana Attorney General’s office to file a response to the
allegations made; [dkt 16]
c. Indiana Attorney General’s office response filed on 17th day of August, 2021, [dkt
17];
d. Petitioner’s response filed on the 19th day of August 2021, [dkt 18].
6. Burt Ford is from the same County Court as the Petitioner, Allen County, Indiana, who
was also denied any opportunity to:
a.
b.
c.
d.
e.

an evidentiary hearing;
subpoenas of counsel of record;
Motions to Compel counsel to respond,
Motions to depose, and
Motion to Compel his attorneys to respond by affidavit when they failed to do so.
II.

ARGUMENT

7. That although Ford was granted his motions to continue, due to counselfailure to respond
to the allegations made, Fords was still not afforded that evidence and or any assistance from the
PCR court, although requested, that would have met the constitutional requirement of due process.
8. Fords argument and position of Allen Counties unconstitutional practices, by taking a longlasting position of all pro se petitioners proceeding by affidavit without an evidentiary hearing
regardless of any situation, who also are not afforded any assistance from their underlining
counsel ofsubmitting and or forwarding their responses to the allegations raised whether it be by
affidavit, interrogatories and or other methods of testimonial evidence violate prisoners due
process from that county are also the same of Jacksons.
9. Petitioner believes his case is much like that which Judge Wyzanski stated: “While a
criminal trial is not a game in which the participants are expected to enter the ring with near match
in skills, neither is it a sacrifice of unarmed prisoners to gladiators.” Williams v. Twomey, 510 F.
2d 634, 640 (CA7), cert denied sub nom Sielaffv. Williams, 423 U.S. 876,46 L.Ed, 2d 109, 96 S.
Ct. 148 (1975).

2

10.

Petitioner could not have done anything more than he did to obtain evidence from

his counsel from which if left unaddressed, will prejudice him with courts finding that it was the
Petitioner’s fault for not submitting that evidence when all the while, it was the PCR court and
counsel of record who precluded that admission of evidence. Petitioner must be afforded a fair
opportunity to present his case in chief without unfair and unconstitutional government preclusion.
11.

Therefore, Jackson request this Court to consider this supplemental brief in

conjunction with his original petition and take judicial notice of the Writ of Habeas Corpus of
Petitioner Burt Ford, Cause Number: l:20-cv-01639-RLY-TAB, [dkt 16, 17 and 18] and make it
part of these proceedings in consideration of this case and cause pursuant to Fed. R. Evid. 201
(b)(c)(2) prior to any ruling denying and or granting of the Petition.

I, the undersigned, hereby swear or affirm under penalty for perjury that the above and
foregoing representations are true and correct to the best of my personal knowledge and belief.

Wherefore, the Petitioner, Jackson, request this Court to consider this supplemental brief in
conjunction with his original petition and take judicial notice of the Writ of Habeas Corpus of
Petitioner Burt Ford, Cause Number: l:20-cv-01639-RLY-TAB, [dkt 16, 17 and 18] and make it
part of these proceedings in consideration of this case and cause pursuant to Fed. R. Evid. 201
(b)(c)(2) and for all other and proper relief.

Dated this 9th day of September, 2021,
Samuel Lee Jackson,
Petitioner / Pro se

3

